Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grantsto the Jaffrey, New Hampshire, Police Department
GR-70-00-006 December 17, 1999Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services (COPS) to the Town of Jaffrey, New Hampshire Police Department (Jaffrey).  The purpose of the grants is to enhance community policing.  Jaffrey was awarded a total of $176,559 to hire 2 new full-time sworn police officers, 2 part-time officers and to redeploy .2 full-time equivalent (FTE) sworn officers from administrative duties to community policing.  

Jaffrey violated some grant conditions.


Jaffrey was not adequately planning for the retention of officers funded under the UHP grant.
	Jaffrey did not document the redeployment of .2 FTE for the MORE 95 grant; therefore, we question $4,137.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit scope and methodology appear in Appendix II.